               Office of Inspector General




December 10, 2004

GEORGE L. LOPEZ
VICE PRESIDENT, SOUTHWEST AREA

SUBJECT: Audit Report – Self-Service Vending Program – Southwest Area
         (Report Number DR-AR-05-010)

This is one of a series of audit reports on the Postal Service’s Self-Service Vending
Program. The report summarizes the results of our self-initiated audit on the
Self-Service Vending Program in the Southwest Area (Project Number
04YG024DR000). The information in this area report will be included in a nationwide
capping report that will provide the Vice President, Delivery and Retail, an assessment
of the Self-Service Vending Program.

                                                 Background

The Self-Service Vending Program, implemented in October 1964, is one of the Postal
Service’s major programs. It provides Postal Service customers with a convenient
alternative for purchasing stamps and other basic Postal Service products after
business hours and without the need to stand in line during business hours.

Nationwide, the Postal Service maintains approximately 30,000 vending
machines (27,000 self-service postal centers and 3,000 other types of
vending equipment) that generated over $1.9 billion in revenue during fiscal years
(FY) 2001 through 2003. The Southwest Area had 13 percent (3,876) of the nationwide
total vending equipment that generated approximately 13 percent ($87.3 million) of the
nationwide total revenue during FY 2003. During the first quarter of FY 2004, the
Southwest Area had approximately 13 percent (3,9891) of the nationwide total vending
equipment that generated approximately $23.8 million in vending revenue. (See
Appendix A for equipment and revenue details by district.)

                                 Objective, Scope, and Methodology

The objective of our audit was to determine whether the Self-Service Vending Program
is effectively and efficiently meeting program goals of increasing revenue and reducing

1
    During the first quarter FY 2004, the Southwest Area had 113 additional vending machines.

      1735 N Lynn St
      Arlington, VA 22209-2020
      (703) 248-2100
      Fax: (703) 248-2256
Self-Service Vending Program –                                                           DR-AR-05-010
 Southwest Area

operating costs. Specifically, in this review, we determined whether Self-Service
Vending Program managers effectively redeployed vending equipment that did not meet
minimum revenue requirements in order to maximize revenue, and discontinued the use
of obsolete vending equipment. We also physically observed a judgmental sample of
60 vending machines to determine whether the machines were operational and easily
accessible. For the 3,876 vending machines operating in the Southwest Area during
FY 2003, 6182 were classified as obsolete based on Postal Service guidance, while the
remaining 3,258 were classified as current equipment. For the first quarter of FY 2004,
3,989 vending machines were operating in the Southwest Area, of which 6363 were
classified as obsolete, and the remaining 3,353 were classified as current equipment.

During our audit, we visited postal facilities in the Fort Worth, Oklahoma, and
Rio Grande Districts. We interviewed managers and employees; reviewed
documentation and applicable policies and procedures; and analyzed data for all
Southwest Area district locations in the Postal Service’s Vending Equipment Sales and
Service System (VESS) for FY 2003 through first quarter of 2004 to identify obsolete
equipment and equipment that did not meet the minimum revenue requirements.4
Although we relied on data obtained from VESS, we did not test the validity of the data
and controls over the system.

Audit work associated with the Southwest Area was conducted from July through
December 2004 in accordance with generally accepted government auditing standards,
and included such tests of internal controls as were considered necessary under the
circumstances. We discussed our observations and conclusions with appropriate
management officials and included their comments where appropriate.

                                      Prior Audit Coverage

The Office of Inspector General (OIG) has issued three reports related to the objective
of this audit.

Self-Service Vending Program - Tennessee District (Report Number DR-AR-04-003,
June 30, 2004), Self-Service Vending Program - Alabama District (Report Number
DR-AR-04-004, June 30, 2004), and Self-Service Vending Program - Atlanta District
(Report Number DR-AR-04-002, July 1, 2004). The reports stated that district officials
could improve their process for redeploying vending equipment that does not meet
minimum revenue requirements. In FY 2003, 54 percent (857 of 1,573 of the vending
machines in the Tennessee, Alabama, and Atlanta Districts did not meet the minimum
revenue requirements and the districts may have missed revenue opportunities totaling
approximately $2.7 to $8.5 million by not redeploying this equipment. Additionally,
these districts continued to use 250 obsolete machines and possibly incurred
maintenance and repair expenses. Management agreed with all recommendations and
the actions taken and planned were responsive to the recommendations.


2
  This number includes seven currency changer machines, which do not generate revenue.
3
  This number includes seven currency changer machines, which do not generate revenue.
4
  Obsolete equipment was not included in the minimum revenue analysis.
                                                       2
Self-Service Vending Program –                                                                         DR-AR-05-010
 Southwest Area


                                               Audit Results

Opportunities exist for Southwest Area officials to improve the effectiveness and
efficiency of the Self-Service Vending Program and to meet or exceed program goals of
increasing revenue and reducing operating costs. Officials could increase revenue
opportunities by redeploying equipment that does not meet minimum revenue
requirements. Our review indicated that 63 percent (2,057 of 3,258) of the vending
machines operating in the Southwest Area did not meet the minimum revenue
requirements during FY 2003 and the Southwest Area may have missed revenue
opportunities of approximately $5.9 million to $20.1 million by not redeploying this
equipment. Further, Southwest Area officials could possibly reduce maintenance and
repair costs by discontinuing the use of obsolete equipment. Additionally, our physical
observation of vending machines in the Southwest Area indicated that overall the
machines were operational and easily accessible, with few exceptions. These
exceptions were presented in a report to the Oklahoma District Manager and are not
addressed in this report.

Redeployment of Vending Equipment

Southwest Area officials could improve their process for redeploying vending equipment
that does not meet minimum revenue requirements. Specifically, our review of the
vending equipment revenue reports for FY 2003 indicated that 65 percent (1,037 of
1,587) of the vending machines in the Fort Worth, Oklahoma, and Rio Grande Districts
did not meet the minimum revenue requirements. Vending equipment sales for these
districts were approximately $8.39 million, which was significantly less than the
minimum revenue requirement of $17.56 million. As a result, these districts may have
missed revenue opportunities of $2.85 to $9.17 million by not redeploying this
equipment.5 (See Appendix B, Table 1 for details.)

Additionally, during the same period, our review of the vending equipment revenue
reports indicated that 61 percent (1,020 of 1,671) of the vending machines in the
Albuquerque, Arkansas, Dallas, Houston, and Louisiana Districts did not meet minimum
revenue requirements. Vending equipment sales for these districts were approximately
$10.58 million, which was significantly less than the minimum revenue requirement of
$21.46 million. As a result, these districts may have missed revenue opportunities of
$3.02 to $10.88 million if district officials did not initiate any redeployment actions for
this equipment.6 (See Appendix B, Table 2 for details.)



5
  For each vending machine, we calculated the shortfall in revenue compared to the established minimum for a
particular machine type and referred to this shortfall as “missed revenue opportunities.” The $2.85 million represents
the minimum total possible missed revenue opportunities after giving consideration to Postal Service guidance, which
requires district officials to review revenue reports and take appropriate actions if a vending machine’s revenue does
not reach plan in three to six accounting periods. The $9.17 million represents the maximum total possible missed
revenue opportunities for FY 2003 and is calculated by subtracting actual revenues generated from the total of all
machine minimum revenue requirements.
6
  The $3.02 and $10.88 million represent the minimum and maximum of total possible missed revenue opportunities
respectively, for FY 2003 using the same computation methodology as discussed in footnote 5.

                                                          3
Self-Service Vending Program –                                                    DR-AR-05-010
 Southwest Area

During the first quarter of FY 2004, our review of the vending equipment revenue
reports in the Fort Worth, Oklahoma, and Rio Grande Districts indicated that 63 percent
(1,045 of 1,648) of the vending machines did not meet the minimum revenue
requirements. Vending equipment sales were approximately $1.82 million, which was
significantly less than the minimum revenue requirement of $3.87 million. As a result,
these districts may have missed revenue opportunities of $2.05 million by not
redeploying this equipment. (See Appendix B, Table 3 for details.)

During the same period, our review of the vending equipment revenue reports indicated
that 56 percent (962 of 1,705) of the vending machines in the Albuquerque, Arkansas,
Dallas, Houston, and Louisiana District locations did not meet minimum revenue
requirements. Vending equipment sales for these districts were approximately
$2.12 million, which was significantly less than the minimum revenue requirement of
$4.46 million. As a result, these district locations may have missed revenue
opportunities of $2.34 million if district officials did not initiate any redeployment actions
for this equipment. (See Appendix B, Table 4 for details.)

One of the Self-Service Vending Program’s goals is to increase revenue through the
redeployment of equipment. The Postal Service should redeploy equipment that does
not meet minimum revenue requirements to other locations. Postal Service policy,
Handbook PO-102, Self-Service Vending Operational and Marketing Program,
Chapter 2, Section 256, May 1999 (updated with Postal Bulletin revisions through
December 25, 2003), establishes the minimum revenue requirements for vending
machines. The district retail office is responsible for evaluating equipment revenue to
find the right location for the right machine. If self-service vending equipment is located
in an area where it is unable to generate enough revenue to meet the minimum
requirement, the equipment must be considered for redeployment. If revenue does not
meet the minimum requirement in three to six accounting periods, the district retail office
should place the equipment on a list for redeployment; notify any office where changes
will be made; prepare a typewritten or computer-generated notice, approved through the
district retail office, to be posted in the lobby informing customers 30 days before
removing the equipment; and complete Postal Service Form 4805, Maintenance Work
Order, and move the equipment to a better location.

Fort Worth and Oklahoma District officials did not initiate action for the underperforming
vending machines during FY 2003 and the first quarter of FY 2004 because they did not
believe it was cost effective. District officials informed the OIG that it was not cost
effective to redeploy underperforming machines because the machines generated some
revenue. Further, officials stated to the OIG that if the machines were removed, they
would be stored in a warehouse where they would not generate any revenue.
Additionally, district officials were concerned about the potential adverse impact to
customer service due to the nonavailability of vending equipment in their facilities.
Rio Grande District officials indicated that the Self-Service Vending Program was not
the highest priority and limited resources were allocated to the program. Work efforts
were directed to higher priorities such as the Mystery Shopper Program. Also,
Rio Grande District officials expressed concern about the potential adverse impact to
customer service due to nonavailability of machines. By not taking action to redeploy
                                              4
Self-Service Vending Program –                                               DR-AR-05-010
 Southwest Area

underperforming vending equipment, the districts may have missed revenue
opportunities during the remainder of FY 2004.

District officials stated they did not have any concerns with the Postal Service’s
methodology to establish minimum revenue requirements. However, Fort Worth and
Oklahoma District officials stated that they used the criteria as guidance to manage the
Self-Service Vending Program and that although vending machines may not have met
minimum revenue requirements; they did generate some revenue and were available
for customers. Rio Grande District officials stated that the criteria did not take into
account the challenges, resources and coordination efforts required to redeploy vending
equipment. We plan to forward these issues to Postal Service Headquarters.

We discussed the results with Southwest Area officials and they agreed that they could
improve their redeployment process for equipment that does not meet the Postal
Service’s minimum revenue requirements. Area officials indicated that work efforts
were directed to higher priorities such as the automated postal centers and plans are
being made to reassess vending machine locations based on receipt of the automated
postal centers. Also, area officials believed that Postal Service Headquarter officials
should restructure the criteria to focus on other important aspects such as Wait Time in
Line rather than the generation of revenue.

Recommendation

We recommend the Vice President, Southwest Area, direct the Districts and Retail
Managers to:

1. Review revenue reports to identify underperforming equipment; notify postmasters of
   vending equipment that generates low revenue; and give consideration to all feasible
   alternatives, complete all necessary actions to redeploy underperforming equipment
   as often as possible.

Management’s Comments

Management agreed with our finding and recommendation. Management stated that
district officials will review headquarters provided listings of underperforming vending
machines for possible removal and relocation beginning January 1, 2005. This effort is
in alignment with the National Self- Service and Access Management’s Vending Task
Force Initiative. This national initiative requires assessment of underperforming
equipment not meeting 50 percent of minimum revenue requirements. Districts must
complete their reviews to coincide with the task force’s implementation schedule, which
is still under development. Southwest Area districts will be required to complete this
task by March 31, 2005. Management’s comments, in their entirety, are included in
Appendix D of this report.




                                            5
Self-Service Vending Program –                                                                DR-AR-05-010
 Southwest Area


Evaluation of Management’s Comments

Management’s actions taken or planned are responsive to the recommendation and
should resolve the issue identified in this finding.

Use of Obsolete Equipment

In FY 2003, Fort Worth, Oklahoma, and Rio Grande District officials continued to use
3117 obsolete machines and possibly incurred maintenance and repair expenses,
although Postal Service policy discontinued the maintenance and repair support for the
machines in June 2000.8 Our review of vending equipment revenue reports for the
three districts indicated that approximately 95 percent (295 of 311) of these vending
machines did not meet minimum revenue requirements during FY 2003. During the
first quarter of FY 2004, district officials continued to use 3289 obsolete machines and
approximately 93 percent (304 of 328) of the vending machines did not meet minimum
revenue requirements. District officials stated that they continued to use and maintain
this equipment because removing the equipment would not be cost effective. Also,
district officials were concerned about the potential adverse impact on customer service
since replacement equipment was not available. As a result, the Southwest Area
possibly incurred maintenance and repair expenses that may have exceeded the
revenue generated in FY 2003 and the first quarter of FY 2004 by allowing the operation
and maintenance of these machines in the three district locations. We were unable to
determine the amount of repair and maintenance expenses associated with the
machines because the Postal Service does not capture the data for each machine.10
(See Appendix C, Tables 1 and 3 for details.)

Additionally, during the same period, Albuquerque, Arkansas, Dallas, Houston, and
Louisiana District officials continued to use 30011 obsolete machines and possibly
incurred maintenance and repair expenses. Our review of the vending equipment
revenue reports indicated that 88 percent (264 of 300) of these vending machines did
not meet minimum revenue requirements during FY 2003. During the first quarter of
FY 2004, these districts continued to use 30112 obsolete machines and 91 percent
(273 of 301) did not meet minimum revenue requirements. As a result, the Southwest
Area possibly incurred maintenance and repair expenses that may have exceeded the
revenue generated, by allowing the operation and maintenance of these machines in
the five district locations. We were unable to determine the amount of repair and
maintenance expenses associated with the machines because the Postal Service does
not capture the data for each machine. (See Appendix C, Tables 2 and 4 for details.)




7
  This number does not include three currency changers that do not generate revenue.
8
  This policy supplements Maintenance Management Order, MMO-018-96, June 21, 1996, Discontinuance of Support
for Obsolete Vending Machines. This MMO includes discontinuance of support for recently obsolete models of
vending machines announced in the Material Logistics Bulletin (MLB-PP-00-004), issued on May 18, 2000.
9
  This number does not include three currency changers that do not generate revenue.
10
   We plan to address this issue in a capping report to Postal Service Headquarters officials.
11
   This number does not include four currency changers that do not generate revenue.
12
   This number does not include four currency changers that did not generate revenue.
                                                           6
Self-Service Vending Program –                                                 DR-AR-05-010
 Southwest Area

Periodically, the Postal Service lists vending equipment as obsolete, meaning that the
equipment has exceeded its expected life cycle and will no longer receive support from
maintenance organizations. All inactive retail vending equipment items must be
reported to the appropriate district material management specialist. When retail
vending equipment items are obsolete or listed as excess, the Postal Service may
consider them for disposal action. Parts from obsolete machines may be salvaged and
stored for maintenance or repair of other compatible equipment. In June 2000, Postal
Service policy listed the obsolete vending equipment that should no longer receive
support from maintenance organizations.

By continuing to use and maintain obsolete machines, the Southwest Area will possibly
incur repair and maintenance costs that may exceed the revenue generated. We
recognize management’s desire to provide customer service; however, because the
Postal Service does not capture repair and maintenance, management has no means of
assessing whether the benefits of operating the obsolete equipment outweigh the costs
to operate it. Southwest Area officials indicated that plans will be made to replace some
obsolete machines with current equipment when new automated postal centers are
deployed to the districts.

Recommendation

We recommend the Vice President, Southwest Area, direct the District and Retail
Managers to:

2. Consider all feasible alternatives and complete all necessary actions to eliminate
   repair and maintenance costs for the obsolete equipment.

Management’s Comments

Management agreed with our finding and recommendation. On November 17, 2004,
management directed all district retail managers to notify local maintenance managers
that obsolete equipment should not be repaired. Management also stated that due to
financial impact to districts, obsolete equipment will be removed through attrition as the
equipment becomes inoperable. Additionally, management stated 126 obsolete
machines in the Southwest Area are targeted for removal by January 31, 2005, when
resources become available and customer service is not impacted. Further,
management stated where post offices maintain only one piece of vending equipment
that serves an entire community and the equipment has been identified as obsolete, the
equipment will not be removed until it becomes inoperable, per the National Vending
Task Force.

Evaluation of Management’s Comments

Management’s actions taken or planned are responsive to the recommendation and
should resolve the issue identified in this finding.



                                            7
Self-Service Vending Program –                                              DR-AR-05-010
 Southwest Area

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. These recommendations should not be closed in
the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during our review.
If you have any questions or need additional information, please contact Debra D.
Pettitt, Director, Delivery and Retail, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachment

cc: William P. Galligan
    Steven R. Phelps




                                           8
Self-Service Vending Program –                                                                                       DR-AR-05-010
 Southwest Area



                                                  APPENDIX A
                                               VENDING MACHINES

                                                          FY 2003
Table 1                                       Southwest Area Vending Machines
  900
                                             823
  800

  700

  600        545             533
                                                                                                                             477
  500                                                                                            443
                                                                                     419                       420
  400

  300
                                                                  216
  200

  100

    0
                                               e




                                                                  e




                                                                                                                              a
                                                                                                                on
                                                                                     as




                                                                                                     s
                              a
               th




                                                                                                 lla
                                            nd




                                                                u




                                                                                                                           an
                            om
            or




                                                                                  ns
                                                             rq




                                                                                                             st
                                                                                              Da
                                          ra




                                                                                                                            si
        W




                                                                                                           ou
                         ah




                                                              e




                                                                                ka




                                                                                                                         ui
                                      G




                                                           qu
       rt




                                                                                                          H
                       kl




                                                                              Ar




                                                                                                                      Lo
                                     io
     Fo




                                                        bu
                      O




                                    R




                                                      Al




    14.06%          13.75%         21.23%              5.57%                10.81%         11.43%        10.84%      12.31%

                                    Percentage of Total Vending Machines (3,876)


                                                        FY 2004 – First Quarter
Table 2                                            Southwest Area Vending Machines
  900
                                            836

  800

  700

             564             579
  600
                                                                                                                            487
  500                                                                                            454
                                                                                  427                         422
  400

  300
                                                                  220
  200

  100

    0
                                               e




                                                                  e




                                                                                                                              a
                                                                                                                on
                                                                                  as




                                                                                                    s
                              a
               th




                                                                                                 la
                                            nd




                                                                u




                                                                                                                           an
                            om
            or




                                                                                  ns
                                                             rq




                                                                                                             st
                                                                                               al
                                          ra




                                                                                                                            si
        W




                                                                                                           ou
                         ah




                                                              e




                                                                                              D
                                                                                ka




                                                                                                                         ui
                                      G




                                                           qu
       rt




                                                                                                          H
                       kl




                                                                              Ar




                                                                                                                      Lo
                                     io
     Fo




                                                        bu
                      O




                                    R




                                                      Al




    14.14%          14.51%         20.96%             5.52%                 10.70%         11.38%        10.58%      12.21%

                                    Percentage of Total Vending Machines (3,989)


                                                                        9
Self-Service Vending Program –                                                                                                 DR-AR-05-010
 Southwest Area


                                            APPENDIX A
                                     VENDING MACHINE REVENUE

                                                                FY 2003
Table 3                                                  Southwest Area Revenue
   $20.0
                                              $18.0
   $18.0
                                                                                                  $15.4
   $16.0                                                                                                        $14.3
   $14.0
   $12.0      $11.1
                                                                                                                                  $10.4
   $10.0                      $8.7
    $8.0
                                                                                   $6.0
    $6.0
                                                                $3.4
    $4.0
    $2.0
    $0.0
                                                 e




                                                                 e




                                                                                                                                       a
                                                                                                                   n
                                                                                  as




                                                                                                     s
                               a
                 th




                                                                                                 lla
                                              nd




                                                                qu




                                                                                                                 to




                                                                                                                                    an
                             om
              or




                                                                               ns




                                                                                                               us
                                                                                              Da
                                            ra




                                                              er




                                                                                                                                 si
           W




                          ah




                                                                              ka




                                                                                                                              ui
                                                                                                            Ho
                                        G




                                                           qu
         rt




                        kl




                                                                            Ar




                                                                                                                           Lo
                                       io
       Fo




                                                         bu
                       O




                                      R




                                                       Al




      12.7%           10.0%          20.6%               3.9%               6.9%           17.6%           16.4%          11.9%


                                                 Percentage of Total Revenue ($87.3 Million)




                                                       FY 2004 – First Quarter
Table 4                                               Southwest Area Revenue
    $6.0
                                              $5.0


                                                                                               $4.0                             $4.0
    $4.0
                                                                                                              $3.3
               $2.9

                              $2.2
    $2.0                                                                       $1.5
                                                               $0.9


    $0.0
                                                e




                                                                  e




                                                                                                                                    a
                                                                                                                on
                                                                                 as




                                                                                                  s
                              a
               th




                                                                                               la
                                              nd




                                                               qu




                                                                                                                                 an
                            om
            or




                                                                              ns




                                                                                                             st
                                                                                             al
                                            ra




                                                             er




                                                                                                                              si
           W




                                                                                                           ou
                          ah




                                                                                            D
                                                                          ka




                                                                                                                           ui
                                        G




                                                          qu
         rt




                                                                                                          H
                        kl




                                                                        Ar




                                                                                                                        Lo
                                        o
       Fo




                                                        bu
                       O




                                     Ri




                                                      Al




      12.2%           9.2%           21.0%              3.8%            6.3%              16.8%           13.9%         16.8%


                                        Percentage of Total Revenue ($23.8 Million)


                                                                       10
        Self-Service Vending Program –                                                                      DR-AR-05-010
         Southwest Area


                                                   APPENDIX B
                                                REVENUE ANALYSIS

        Table 1
                                                           FY 2003
                                                     Vending Equipment
                                        Fort Worth, Oklahoma, and Rio Grande Districts

                                                        Machines                      Machines       Minimum          Maximum
                            Total      Machines            Not            Total       Minimum         Missed            Missed
                           Current      Meeting          Meeting         Machine      Revenue         Revenue          Revenue
                          Vending      Revenue          Revenue           Sales      Requirement    Opportunities    Opportunities
  District Locations      Machines    Requirement      Requirement      (millions)    (millions)     (millions)       (millions)

Fort Worth                      437             169              268         $1.99         $4.07             $.66            $2.08
Oklahoma                        448             112              336          2.44          5.43              .98             2.99
Rio Grande                      702             269              433          3.96          8.06             1.21             4.10
  Total                       1,587             550            1,037         $8.39        $17.56            $2.85            $9.17


Note: Based on the information in Table 1 above, in FY 2003, 35 percent (550 of 1,587) of the machines in the Forth Worth,
Oklahoma, and Rio Grande Districts met the minimum revenue requirements and 65 percent (1,037 of 1,587) did not meet the
requirements.



        Table 2
                                                          FY 2003
                                                   Vending Equipment
                               Albuquerque, Arkansas, Dallas, Houston, and Louisiana Districts

                                                    Machines                       Machines      Minimum          Maximum
                         Total      Machines           Not             Total       Minimum        Missed            Missed
                        Current      Meeting         Meeting          Machine      Revenue        Revenue          Revenue
       District        Vending      Revenue         Revenue            Sales      Requirement   Opportunities    Opportunities
      Locations        Machines    Requirement     Requirement       (millions)    (millions)    (millions)       (millions)

   Albuquerque               155              37             118         $1.16          $2.91             $.59           $1.75
   Arkansas                  343              92             251          2.54           5.37              .89            2.83
   Dallas                    400             182             218          1.92           3.89              .54            1.97
   Houston                   332             175             157          1.77           3.63              .47            1.86
   Louisiana                 441             165             276          3.19           5.66              .53            2.47
     Total                 1,671             651           1,020        $10.58         $21.46            $3.02          $10.88


  Note: Based on the information in Table 2 above, in FY 2003, 39 percent (651 of 1,671) of the machines in the
  Albuquerque, Arkansas, Dallas, Houston, and Louisiana Districts met the minimum revenue requirements and 61 percent
  (1,020 of 1,671) did not meet the requirements.




                                                                11
Self-Service Vending Program –                                                                         DR-AR-05-010
 Southwest Area




                                            APPENDIX B
                                         REVENUE ANALYSIS

Table 3

                                             FY 2004 – First Quarter
                                              Vending Equipment
                                 Fort Worth, Oklahoma, and Rio Grande Districts

                                                          Machines                      Machines         Maximum
                            Total        Machines            Not            Total       Minimum           Missed
                           Current        Meeting          Meeting         Machine      Revenue           Revenue
                          Vending        Revenue          Revenue           Sales      Requirement      Opportunities
  District Locations      Machines      Requirement      Requirement      (millions)    (millions)       (millions)

Fort Worth                       456              185              271         $.42             $.89              $.46
Oklahoma                         482              122              360          .56             1.31               .75
Rio Grande                       710              296              414          .84             1.67               .84
  Total                        1,648              603            1,045        $1.82            $3.87             $2.05

  Note: Based on the information in Table 3 above, in the first quarter of FY 2004, 37 percent (603 of 1,648) of the
  machines in the Fort Worth, Oklahoma, and Rio Grande Districts met the minimum revenue requirements and
  63 percent (1,045 of 1,648) did not meet the requirements.




Table 4
                                          FY 2004 – First Quarter
                                           Vending Equipment
                       Albuquerque, Arkansas, Dallas, Houston, and Louisiana Districts

                                                      Machines                      Machines        Maximum
                         Total       Machines            Not            Total       Minimum          Missed
                        Current       Meeting          Meeting         Machine      Revenue          Revenue
       District        Vending       Revenue          Revenue           Sales      Requirement     Opportunities
      Locations        Machines     Requirement      Requirement      (millions)    (millions)      (millions)

   Albuquerque                158              47              111         $.22             $.60              $.39
   Arkansas                   351             105              246          .56             1.20               .64
   Dallas                     411             192              219          .36              .84               .47
   Houston                    334             166              168          .42              .93               .51
   Louisiana                  451             233              218          .56              .89               .33
     Total                  1,705             743              962        $2.12            $4.46             $2.34

  Note: Based on the information in Table 4 above, in the first quarter of FY 2004, 44 percent (743 of 1,705) of the
  machines in the Albuquerque, Arkansas, Dallas, Houston, and Louisiana Districts met the minimum revenue
  requirements and 56 percent (962 of 1,705) did not meet the requirements.




                                                         12
Self-Service Vending Program –                                                                  DR-AR-05-010
 Southwest Area



                                       APPENDIX C
                                   OBSOLETE EQUIPMENT

Table 1
                                                 FY 2003
                                       Obsolete Vending Equipment
                              Fort Worth, Oklahoma, and Rio Grande Districts

                                                      Machines Meeting
                                  Total Obsolete         Revenue                Machines Not Meeting
       District Locations        Vending Machines       Requirement             Revenue Requirement

    Fort Worth                                 108                      2                             106
    Oklahoma                                    85                      5                              80
    Rio Grande                                 118                      9                             109
    Total                                      311                     16                             295

   Note: Based on the information in Table 1 above, in FY 2003, 5 percent (16 of 311) of the machines in the
   Fort Worth, Oklahoma, and Rio Grande Districts met the minimum revenue requirements and 95 percent (295 of
   311) did not meet the requirements.




Table 2
                                             FY 2003
                                  Obsolete Vending Equipment
                  Albuquerque, Arkansas, Dallas, Houston, and Louisiana Districts

                                  Total Obsolete           Machines Meeting        Machines Not Meeting
      District Locations         Vending Machines         Revenue Requirement      Revenue Requirement

    Albuquerque              61                           3                                             58
    Arkansas                 74                           5                                             69
    Dallas                   43                           4                                             39
    Houston                  86                           23                                            63
    Louisiana                36                           1                                             35
    Totals                   300                          36                                           264

   Note: Based on the information in Table 2 above, in FY 2003, 12 percent (36 of 300) of the machines in the
   Albuquerque, Arkansas, Dallas, Houston, and Louisiana Districts met the minimum revenue requirements
   and 88 percent (264 of 300) did not meet the minimum revenue requirements.




                                                     13
Self-Service Vending Program –                                                                        DR-AR-05-010
 Southwest Area



                                            APPENDIX C
                                         Obsolete Equipment

Table 3
                                            FY 2004 – First Quarter
                                        Obsolete Vending Equipment
                                Fort Worth, Oklahoma, and Rio Grande Districts

                                                          Machines Meeting
                                  Total Obsolete             Revenue                  Machines Not Meeting
      District Locations         Vending Machines           Requirement               Revenue Requirement

  Fort Worth                                      108                            4                            104
  Oklahoma                                         97                            3                             94
  Rio Grande                                      123                           17                            106
  Total                                           328                           24                            304

 Note: Based on the information in Table 3 above, in the first quarter of FY 2004, 7 percent (24 of 328) of the
 machines in the Fort Worth, Oklahoma, and Rio Grande Districts met the minimum revenue requirements and
 93 percent (304 of 328) did not meet the requirements.




Table 4
                                         FY 2004 – First Quarter
                                      Obsolete Vending Equipment
                      Albuquerque, Arkansas, Dallas, Houston, and Louisiana Districts

                                 Total Obsolete
                                    Vending           Machines Meeting               Machines Not Meeting
      District Locations           Machines          Revenue Requirement             Revenue Requirement

   Albuquerque                                 62                           2                                  60
   Arkansas                                    74                           5                                  69
   Dallas                                      43                           7                                  36
   Houston                                     86                          13                                  73
   Louisiana                                   36                           1                                  35
   Totals                                     301                          28                                 273

 Note: Based on the information in Table 4 above, in the first quarter of FY 2004, 9 percent (28 of 301) of the
 machines in the Albuquerque, Arkansas, Dallas, Houston, and Louisiana Districts met the minimum revenue
 requirements and 91 percent (273 of 301) did not meet the requirements.




                                                         14
Self-Service Vending Program –                     DR-AR-05-010
 Southwest Area


               APPENDIX D. MANAGEMENT’S COMMENTS




                                 15
Self-Service Vending Program –        DR-AR-05-010
 Southwest Area




                                 16
Self-Service Vending Program –        DR-AR-05-010
 Southwest Area




                                 17
Self-Service Vending Program –        DR-AR-05-010
 Southwest Area




                                 18
Self-Service Vending Program –        DR-AR-05-010
 Southwest Area




                                 19
